No. 19-988

In The Supreme Court Of The United States
LIVING ESSENTIALS, LLC; INNOVATION VENTURES, LLC,,
PETITIONERS,

v.

CERTIFICATE OF
SERVICE

STATE OF WASHINGTON,
RESPONDENT.

I hereby certify that:
1.

On June 29, 2020, the State of Washington’s Brief In Opposition was

served as follows:
2.

Per the Court’s April 15, 2020, Order, service on Counsel of Record will

be provided via the Court’s ECF system, as well as a separate e-mail from the
Washington Office of Attorney General, to Counsel listed on the attached service list.
3.

All parties required to be served have been served.

4.

I am a member of the Bar of the Supreme Court of the United States.

DATED this 29th day of June 2020.
s/ Peter B. Gonick
PETER B. GONICK
Deputy Solicitor General
Counsel of Record

1125 Washington Street SE
Olympia, WA 98504-0100
360-753-6200

SERVICE LIST
COUNSEL FOR PETITIONERS:

William S. Consovoy
Consovoy McCarthy PLLC
1600 Wilson Boulevard Suite 700
Arlington, VA 22209

703-243-9423
will@consovoymccarthy.com

